MO
*

Xi -H»
CASE No.

In The
Supreme Court of the United States
LUMBSDEN A SANGSTER
Petitioner;

v.
>

DETECTIVE ANTHONY VALENCIA
Respondent.

On Writ of Certiorari
to the United State Court of Appeals
for the Fourth District Division Two

PETITION FOR A WRIT OF CERTIORARI
Lumbsden A Sangster
669 East Kettering St
Lancaster, Ca. 93535
Phone: (661) 206-5972

NT

1

QUESTION PRESENTED
(1) Whether the fair report privilege apply to a private
communication between a police officer and a member of
the press is supported in a defamation cases.
(2) Whether Section § 47 (d), is privilege even though
physical evidence were planted/altered in furtherance
qualified a defendant for this subdivision in a defamation
case. (See Section § 47(b)(2)).
(3)
Does the California Evidence Code EVID § 250,
apply to evidence of records marked as exhibits in a
complaint.

>

•

:

•••

»:
■y

i

u
PARTIES TO PROCEEDING BELOW
■? •

The parties to the proceeding below are Petitioner
Lumbsden A Sangster,
The Respondents are Detective Anthony Valencia.

*

S

A

V-

£

l

fv

V? *• v

r!
■.>.

i

Ul

TABLE OF CONTENTS
1

QUESTION PRESENTED

2

PARTIES TO PROCEEDING BELOW.

,ii

3

TABLE OF CONTENTS...:

m

i

V'

4

INDEX TO APPENDICES

v

5

TABLE OF AUTHORITIES

vi

6

PETITION FOR A WRIT OF CERTIORARI

.1

7

OPINIONS BELOW

8

JURISDICTION.

2

9

CONSTITUTIONAL AND STATUTORY
PROVISIONS AND TREATISE INVOLVED

2

STATEMENT OF THE CASE

3

10

1.

11

The Proceeding and Ruling of
the Trial Court of San
Bernardino...............................

3

2.

The Decision of the Appellate Court

8

3.

The Supreme Court of
California Design.......

REASON FOR GRANTING THE PETITION
A.

B.
*'S

i

13
13

The Fair Report Privilege dos
not Support a Private Press
conference................................

13

Respondent did not Show
Evidence Supporting a Press
Conference...........................

14

•*

V r

vr

■ i'

r

IV

■r -

r-

TABLE OF CONTENTS
C.

The Court of Appe?il Fourth: District
Division Two is in Conflict with
the Tennessee Supreme Court.................. 14

D.

This is an Ideal Vehicle for Review
of the Fair Report Privilege, Section § 47
(b)(2), and a Public Press Release
Conference................................................. 14

E.

In Support of the Writ of Certiorari

* ?•

/

15
i-

11

1

17

CONCLUSION.

\;
\

■t

\
2,

I

A
•S

v.;

:•

;

r«

' •>•••
, v

<

•5-

\

*

.1

* ^

Ji

V

INDEX TO APPENDICES

»

APPENDIX A:
The Remittitur, the Order of the Court of Appeals denying
petitioner’s Petition for Rehearing, the Opinion Affirming
Judgment, Appellant’s Petition for Rehearing, Appellant’s
Opening Brief, Notice of Appeal
la
APPENDIX B:
The Judgment of the Trial Court, The Tentative granting
Summary Judgment, Plaintiff, Respond to Motion for
Summary Judgment, Respondent Motion for Summary
Judgment, Separate Statement of Undisputed Material
Facts, Declaration of Detective Anthony Valencia,
Respondent Request for Admission, Plaintiff Respond to
Request for Admission, Special interrogatories to
plaintiff,, Plaintiff Responds to Defendant’s Special
Interrogatories, Responses of Defendant Anthony
Valencia to Plaintiff Lumbsden A Sangster’s requests for
Admission, set one, Tentative on first Demurrer, the
Second Amended Complaint, the First Amended
Complaint, the fee waiver app. and plaintiff Complaint
Filed Junel5,2018
69a.
APPENDIX C:
The Decision of the State Supreme Court denying Petition
for Review en banc, Petitioner’s Petition for Review ..251a

i

VI

TABLE OF AUTHORITIES
Pages:

Case:

Burke v. Sparta Newspaper
592 S.W..3D 116 (2019)......................

6,7,14,15,17

BurrillvNair{2013) 217 Cal.App,4ttx
357,383,158 Cal.rptr.3d 332...............

12

Christoff v. Nestle USA, Inc.
(2009) 47 Cal. 4Th 468, 483..

5

Hebrew Academy ofSan Francisco v. Goldman
(2007) 42 Cal, 4^ 883, 894................................

5

J-MManufacturing Co., vPhillips & Cohen
LLP(2016)247 Cal.app4tli 87, 99-100[201
Cal.Rptr.3d 782,792-793]...............................

12

Rider's Digest Assn. VSuperior Court
(1984) 37 Cal.3d 244, 262..... ........................

12

Shively v. Bozanich (2003) 31 Cal. 4^
1230,1237........................................................

5

Taus vloRus (2007)40 Cal.4th
683, 720, 54 CaLRptr.3d 775, 151 P.3d 1185

12

California Statutes:
CCC Section § 47 (d)
(See Section § 47(b)(2)
California evidence code EVID § 250

1,1,5,7,14,15,17
i,1,6,9,11,12

Federal rules:
Title 18 U.S.C. .§ 1519

3

Title 18 U.S.C. § 1512

3
\

Title28 U.S.C. § 1257(a)

V

2

I^ •

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Lumbsden A Sangster respectfully petitions for
a writ of certiorari to review the judgment of the trial
Court of San Bernardino California, and the Appellate
Court Forth District Division two affirming the trial
court's design granting respondent summary judgment on
Section §47 (d), where evidence were planted according to
the EVID § 250, and witness were coached in furtherance
before defendant made a statement to the press.
Petitioner petition this Court for the fair report privilege
where respondent must produce evidence of a press
release conference that was conducted in a public place in
order to gain the protection of the fair report privilege in
this defamation case, is respectfully petitions for a writ of
certiorari to review the order of the State Trial Court and
the Court of Appeal Fourth District Division two
affirming the trial court's order.
OPINIONS BELOW
The Remittitur (3a), the Order denying Petition for
Rehearing (5a-7a), and the unpublished Opinion of the
Court of Appeals (9a -15a), appellant’s petition for
rehearing (17a-36a), Appellant’s opening brief (37a-64a),
notice of Appeal (65a-67a), is attached to Appendix A,
The Order of the Trial Court (71a), the Tentative (73a-78),
Plaintiff respond to motion for summary judgment( 79a88a ), Defendant motion for summary judgment (89a102a),Separate Statement of Undisputed Material Facts
(Appendix B, 103a-107a), This Documents includes the
next six other documents below as one package:
(Declaration of Detective Anthony Valencia
(1)
(Appendix B, 108a-109a),
Respondent Request for Admission
(2)
(Appendix B,llla-115a),
Plaintiff Respond to Request for Admission
(3)
(Appendix B, 117a-119a),
/

i

2
(4)
Special interrogatories to plaintiff
(Appendix B 121a-124a),
(5)
Plaintiff Respond to Interrogatories
(Appendix b, 126a-128a),
(6)
Responses of Defendant Anthony Valencia to
Plaintiff lumbsden A Sangster Requests for
Admission set, one, (Appendix B, 131a-135a),
Tentative on first demurrer (137a),the Second Amended
Complaint (139a-186a), the First Amended Complaint
(187a-199a), the fee waiver app (201a-202a),and plaintiff
Complaint Filed Junel5,2018 (203a-249a),is attached to
Appendix B.
The Decision of the State Supreme Court denying Petition
for review en banc (253a), the Petition for Review (255a280a), is attached to Appendix C.

•

JURISDICTION
The Court of Appeals issued an unpublished opinion filed
November 19,2020, a timely petition for rehearing was
filed on December 1,2020, On December 15,2020, the
Court of appeal denied the petition for rehearing, On
December 25,2020, Petitioner filed a timely Petition for
Review in the State Supreme Court, On February
24,2021, the Supreme Court denied the petition En Banc,
and on February 25,2021,-the Court of Appeal fourth
Appellate district division two issue a Remittitur, this
Court has jurisdiction pursuant to 28 U.S.C, § 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS
AND TREATISE INVOLVED
Title 28 U.S.C. § 1257(a), Final judgments or decrees
rendered by the highest court of a state in which a
decision could be had, may be reviewed by the Supreme
Court by writ of certiorari where the validity of a treaty or
statute of the United States is drawn in question or where
the validity of a statute of any State is drawn in question
on the ground of its being repugnant to the Constitution,
v
»

3

treaties, or laws of the United States, or where any title,
right, privilege, or immunity is specially set up or claimed
under the Constitution or the treaties or statutes of, or
any commission held or authority exercised under, the
United States.
Title 18 U.S.C. § 1519, Whoever knowingly alters,
destroys, mutilates, conceals, covers up, falsifies, or
makes a false entry in any record, document, or tangible
object with the intent to impede, obstruct, or influence the
investigation or proper administration of any matter
within the jurisdiction of any department or agency of the
United States or any case filed under title 11, or in
relation to or contemplation of any such matter or case,
shall be fined under this title, imprisoned not more than
20 years, or both.
Title 18 U.S.C. § 1512, Tampering with a witness, victim
or an informant. Whoever conspires to commit any offense
under this section shall be subject to the same penalties
as those prescribed for the offense the commission of
which was the'object of the conspiracy.
STATEMENT OF THE CASE
1.
The Proceeding and Ruling of the Trial Court of
San BeraflrdinnOn June 15,2018, appellant file this lawsuit along with a
fee waiver in the County of San Bernardino, California,
for Defamation of Character, the respondent demurrer to
statute of limitation.
On October 18,2018, the trial court issue a Tentative
overruling the demurrer to the first cause of action by
stating the date is alleged (December 28,2017)(6,8,10,17),
the Tentative is here on, Appendix B, 137a, through oral
argument the court then sustained all three COA and
give leaf to amend the complaint (Examination of the
Court records is needed) petitioner amended his
complaint by showing Detective Anthony Valencia was a

i

4
public officer at the time of the violation but did not
amend the first cause of, action because of the delay
discovery rule which should have not been sustained in
the demurrer hearing. There were no reason to sustain
the demurrer to the first cause of action other than to get
petitioner to change the date of awareness to an earlier
date this would have cause petitioner’s case to be dismiss.
The reason for the FAC is because the court ask weather
or not Detective Anthony Valencia was a police officer
working for the county sheriff department at the time
statement were made to the press, this question ask by
the court was believed to insure clarity because Detective
Anthony Valencia was already entered in the complaint
Appendix B, 204a 1 3 as a detective/police under
PARTIES of the complaint, as it reads below.
Defendant Detective Anthony Valencia, (Badge#V0023)
(hereinafter referred to as Defendant} upon information
and belief, is now, and at all times mentioned herein was,
an individual, an employee, agent ofthe San Bernardino
County SheriffDepartment^ over the.age ofmajority,
residing in the City of Victorville, County ofSan
Bernardino, State of California.
Pages amended in the FAC, Appendix B, 190a-197a
reflecting respondent as a detective states (Detective
Anthony Valencia (Badge#v0023)), (page 4 11 9, 10),
(page 5 1 15), (page 6 11 17,19), (page 7 H 21, 22 ,23),
(page 8 11 24, 25) (page 9 11 28, 29730) (page 10 1 31),
(page 1111_34, 35, 36, 37), and was the only changes
made in the FAC, no question were ever ask about
petitioner's exhibits presented, as evidence in his
Complaint, FAC, and ,SAC, Appendix B, 153a-186a, which
had not change through out this litigation, the exhibit
presented would have insure clarity as the Detective
being a officer provided clarity to the court.

4

5
Some evidence presented were, photos and diagram of ’
destruction of private property in furtherance as stated in
Section 47(b)(2), riddling a house with bullet holes,
planted projectile, broken windows, broken stair way,
Appendix B, 160a,161a,162a, etc. made In furtherance, a
letter showing a coach witness, Appendix B, 163a,164a;
made in furtherance, two conflicting ballistic report,Appendix B, 165a-166a, 167a, 168a, and 178a^
179a,180a,181a, trying to cover up one or the other which
was made in furtherance.
...
On February 11, 2019, The court held the second
demurrer hearing which was still addressing statute, of
limitation so the only thing needed was delay discovery
which should have already been applied because
petitioner had already pointed that out in his first
opposition to the first demurrer where the court had agree
before the design was reversed, the court again
overruled the second demurrer to the first cause of action
by stating ’’the exhibits has not change".
On May 14 2019, Respondent files a motion for summary
judgment, Appendix B, 89a-102a, addressing statute of
limitation again and the fair report privilege, the trial
court had already overruled on the statute of limitation
and apply delay discovery which states:
But the one-year time period deadline starts to run
(accrues) on the date that the plaintiff first discovered the
facts constituting the defamation if with reasonable
diligence he or she could not have discovered those facts
earlier because it was communicated in'an inherently
secretive manner. Shively v. Bozanich (2003) 31 Cal. 4^
1230,1237; Hebrew Academy ofSan Francisco v. Goldman
(2007) 42 Cal. 4^ 883,'894; Christoff v. Nestle USA, Inc.
(2009) 47 Cal. 4^ 468, 483.

i

)

6
leaving the fair report privilege, the motion, had not.
defend itself or addresses the. facts of coaching a witness,
Appendix B, 163a, 164a, and 169a (1), planting evidence,
Appendix B, 160a-162, tampering with, and or
manufacturing evidence, Appendix B, 165a,166a,167a,
168a, and 178a-179a,180a,181a,not apply to respondent
defense in this defamation lawsuit, which is in the second
amended complaint.
The motion had not clarified the press release to be
private or a public press release and offer no evidence
supported by the EDIV § 250, of it, a fair report privilege
is only supported by a public press release conference in
a defamation case, respondent offer no evidence as to
when, where, or time of a public press release conference
supposedly held in the county of San Bernardino, for a
statement printed by the daily press, all the Detective
mention was a press release conference which cannot be a
private conference between the detective and any member
of the press. Burke v. Sparta Newspaper 592 S. W. 3d 116
(2019).

/

On June 26,2019, Petitioner filed a Respond and
Declaration, Appendix B, 79a-88a, to the motion for
summary judgment filed by Defendant/ Respondent
responding to his request for statute of limitation which
was overruled in the second demurrer ruling for delay
discovery, these were all repeating issues which were
already rule against statute of limitation issues
0) II PLAINTIFF CANNOT DENY FACTS ALLEGED
IN PREVIOUS PLEADING.
(2) III THE TORT CLAIM ATTACHED AS AN
EXHIBIT TO THE FIRST AMENDED COMPLAINT
WAS UNTIMELY.
(3) IV PLAINTIFF MUST HAVE FILED A TIMELY
TORT CLAIM.
(4) V EQUITABLE TOLLING DOES NOT APPLY.
(5) VI IF THE SAC DOES NOT RELATE TO
DEFENDANT’S DUTIES AS A PUBLIC EMPLOYEE,
THEN THE COMPLAINT WAS STILL, FILED IN
VIOLATION OF THE ONE YEAR STATUTE OF
LIMITATION.
V •

7

(6) VIII PLAINTIFF MUST BE ABLE TO
ARTICULATE A REASONABLE BELIEF IN THE
LIABILITY OF DEFENDANT BEFORE HE FILED.
The Respondent made no mention in his motion for
summary judgment as to weather or not his press release
was in public or in private, there were no evidence of a
location, time, or date. Burke v. Sparta Newspaper 592
S.W 3d 116 (2019).
(7) VII DEFENDANT'S PRESS RELEAES IS
PROTECTED BY THE FAIR REPORT PRIVILEGE.
In Petitioner respond to summary judgment, Appendix B,
82a, line 23,24 shows a coach witness who stated in her
letter, Appendix B, 163a-164a, states the respondent
mention to her of the planting of gun and drugs in
petitioner's car made in furtherance, in Appendix B, 83a,
line 2,3, shows the tampering of physical evidence the
detective had altered found, in.Appendix B, 178a-181a,
Again petitioner was only responding to respondent
request in his summary judgment.
On August 8,2019, the trial court held a hearing on
respondent motion for summary judgment and issue a
tentative, Appendix B, 73a-78a, granting the motion in
favor of respondent under California Civil Code § Section
47, the court also states petitioner did not present any
evidence which is in the SAC, as listed above, the
respondent could not provide any evidence of a public
press release supported by the fair report privilege, and
did not show how planting or altering physical evidence
does not apply to his defense as stated by Section 47
(b)(2), and none of the case laws used by respondent
addresses altering physical evidence grants respondent
the fair report privilege protection, for granting
respondent's summary judgment it appears no one have
any concern as to what those evidence marked as exhibit
is in petitioner's Complaint, FAC, and SAC, are, the
evidence is there and is being ignored.
j

On August 26,2019, the trial court issue Judgment for
Summary Judgment on behalf of Detective Anthony
Valencia.

8
The Decision of the Appellate Court.
2.
On August 16,2019, appellant filed a timely appeal with
the Court of Appeal Fourth District Division 2, Appendix
A, 65a*67a, and his brief filed on November 26, 2019,
Appendix A, 37a-64a, the court held a video oral hearing
November 4,2020, and offer its opinion filed November
19,2020, Appendix A, 9a-15a, affirming the trial court
judgment, Petitioner petition the court for review filed on
December 1,2020, Appendix A, 17a-36a, the court order a
modifying opinion and denied the rehearing filed on
December 15,2020, Appendix A, 5a- 7a, where the
appellate Court affirmed the trial Court holdings.
In the appellate court's opinion, Appendix A, 11a,
(discussion) states the fee waiver was filed after the
complaint making it appears that the reason the trial
court denied petitioner’s rights to privilege is because it
was file late after the complaint, even though petitioner
did not produce a copy of the fee w’aiver for the appellate
court's viewing the manner in which the fee waiver was
denied by the trial court was denying petitioner his rights
to privilege, petitioner check box 5-C along with an
affidavit, so here is a copy for this court viewing showing
the date filed is the same date as the complaint, June 15,
2018, Appendix B, 201a-202a, the trial court simply state
that the scale in box 5-b was the box for petitioner and
denied petitioner rights to privilege the appellate court
agreed with the trial court.
The appellate court’s opinion, Appendix A, 11a, under
(discussion) also stated petitioner argued on appeal that
the trial court sustained his second and third cause of
action, that statement would be an error, because the only
argument petitioner brought pertaining to his COA was
to his first cause of action and believed this was a way to
get petitioner to change the date of that COA which would
have cause a dismissal of his complaint without leaf to
amend, appellant opening brief, Appendix A, 56a, Argue
to the first cause of action no where in that brief
petitioner argued on the second and third cause of action
;

k

9
The appellate court’s opinion, Appendix A, 14a, foot notes
address the respondent evidence in support of summary
judgment which states: Sangster submitted no evidence
in opposition to Valencia’s motion for summaryjudgment,
nor did he dispute Valencia’s separate statement of
undisputed facts. Valencia's evidence in support ofhis
summary judgment motion therefore is undisputed; With
no reference as to any evidence found by petitioner.
The motion was only addressing statute of limitation that
was overruled in the second demurrer hearing,, and a
statement of a press release with no evidence supporting
a public press conference held anywhere, there is no dates, no time, no place on any documents file by
respondent supporting a public press conference had ever
taking place, and if there were evidence presented byr
respondent according to the evidence code 250, petitioner
had not receive any notice or a copy on such evidence.
The appellate court affirmed on the trial court design
based on respondent statement alone with nothing
supporting It.
In the Separate Statement of Undisputed Material Facts,
Appendix B, 103a-107a,
(1) A statement made January 9,2007,
(statute of limitation which was overruled in the
second demurrer and was addressed in petitioner's
response).
(2)

Detective Anthony Valencia was a public employee
(addresses in the Complaint, FAC, and SAC)
(Appendix B,140a,H 4, 188a % 4, and 2.04a H 3).

(3)

Exhibit “A”, a copy of the publication
(the reason forthe lawsuit mark as exhibit # 1, P30 as Appendix B, 182a).
V.

(4)

10
Exhibit “A”, a copy of the publication
(the reason for the lawsuit'mark as exhibit# 1, P30 as Appendix B, 182a).

(5)

Exhibit "A”, a copy of the publication
(the reason for the lawsuit mark as exhibit # 1, P30 as Appendix B, 182a).

(6)

Exhibit “A”, a copy of the publication
(again respondent were looking for statute of
limitation which was overruled in the second
demurrer) (exhibit #1, P-30 as Appendix B, 182a).

(7)

Detective Anthony Valencia was a public employee
(addresses in the SAC, FAG, and Complaint)
(Appendix B, 140a <0 4, 188a % 4,and 204a H 3).

(8)

Detective Anthony Valencia Declaration,
(which is not supported by any documents).

(9)

Detective Anthony Valencia Declaration,
(which is not supported by any evidence ).

(10) Detective Anthony Valencia Declaration,
(statute of limitation which was overruled in the
second demurrer and was addressed in petitioner's
response).
(11)

(12)

Exhibit “A”, a copy of the publication
(again respondent were looking for statute of
limitation which was overruled in the second
demurrer)(exhibit # 1, P-30 as Appendix B, 182a).
Not to load SANGSTER TRUCKS
(was irrelevant cause of action were sustained).

I

(13)

11
Not to load SANGSTER TRUCKS
(was irrelevant cause of action were sustained).

(14) The sale SANGSTER TRUCKS
(was irrelevant cause of action were sustained).
(15) The sale SANGSTER TRUCKS
(was irrelevant cause of action were sustained).
The majority of what was ask in respondent motion for
summary judgment was already address in previous court
hearing, presented as evidence in petitioner’s exhibits, or
plea in petitioners complaint and was addressed in his
response to the motion for summary judgment, the
complaint, FAC, and SAC, identify the detective as a
public employee, the publication is listed in the
Complaint exhibits, FAC, and SAC, exhibits, the statute
of limitation which was seek by respondent was overruled
in the second demurrer hearing, the undisputed material
facts were disputed before the motion was ever filed.
It seems like no matter what petitioner did or say his case
was going to be dismiss anyway, all that was ask was ■
already address in previous documents and in petitioners
PLAINTIFF RESPOND AND DECLARATION TO
DEFENDANT MOTION, Appendix B, 79a-88a,
The trial court find no evidence presented by petitioner as
well as the court of appeal which was plea and listed as
exhibits on the records in petitioners Complaint, FAC,
and SAC, supported by EVID § 250.
'
None of the case laws used in any document filed by the
respondent, show support of any defendant in any case
tampering with any evidence or a private meeting
between a public agent and a journalist, those case laws
below are isolated from the evidence presented here in
this defamation claim by petitioner.

i

12
In Respondent motion for summary judgment here are
some of the case laws cited for fair report privilege are:
(1)

J-MManufacturing Co., v Phillips & Cohen
LLP (2016)247 Cal.app4th 87, 99-100[201
Gal.Rptr.3d 782,792-793]
Case Law addressing press release, but did not address
tampering with evidence in furtherance and or a private
or public press release conference.
(2)

Burrill vNair{2013) 217 CaLApp,4th
357,383,158 Gal.rptr.3d 332.
This Case Law addresses false statement and ruin
reputation, but did not addresses, a coached witness in
furtherance.
(3)

Terns vloftus (2007)40.Cal.4tb 683, 720, 54
Cal.Rptr.3d 775, 151 P.3d 1185
This Case Law identify the elements of a Defamation
claim, but did not mention a publication made in secretive
by high beam that is false in 2017.
(4)

Rider's Digest Assn. VSuperior Court (1984)
37 Cal.3d 244, 262
This Case law addressed flexibility for a fair and true
report,That flexibility does not include coaching a
witness, private meeting with the press and the alteration
of evidence.
These case laws are not completely addressing defendant
issue in this civil lawsuit and can not be used to support
no physical evidence according to the evidence code 250,
that was not presented by respondent, there are many
key factors that stood in the way of defendant summary
judgment and cannot be altered such as altering or
planting physical evidence in furtherance, coaching a
witness in furtherance, the press conference must be in
public, and the discovery date is December 28. 2017, by
the company High Beam.

j

i,

13
Petitioner have been denied the rights to trial by the trial
court and the right to privilege for a fee waiver which was
affirmed by the Appellate Court who also addresses a
argument of COA 2 & 3, which was never argued against,
petitioner must now wonder is this a malicious
miscarriage of justice or a terrible miss understanding,
because in the past the same appellate court affirmed a
decision by the trial court against a claim for malicious
prosecution case filed under a year August 3,2010, after
an acquittal, in the opinion which states:
The language in the statute is clear, Sangster only had a
limited period oftime in which to file his claims against
the County ofSan Bernardino. Although he was charged
andprosecuted with a crime resulting Grom the incident
on January 7,2007\ and he was not exonerated until
August 7,2009, {CT90-91} the time to file a claim against
defendants continued to run while the charges were
pending before a Superior Court.
This opinion was filed 12/12/11, Appellate Case #
E053242 and trial Court # CIWS1005048, page 7. (that
is so not true for a legislator malicious prosecution
claim), even though that is not the issue in this petition,
the consistency of error appears to be the same with the
same Trial Courts and Appellate Court in the same
jurisdiction.
The Supreme Court of California Design.
Petitioner filed A timely petition to the Supreme Court of
California for petition for review, Appendix C, 255a-280a, •
dated December 25,2020, which was denied En Banc filed
on February 24,2021.
'
3.

REASON FOR GRANTING THE PETITION

!

A.
The Fair Report Privilege Dos not Support a
Private Press Conference.
This Court should grant review to determine on whether
the fair report privilege support a press conference
between members of the press and a member of law
enforcement made through private communication would
qualified a defendant for the benefits of the fair report
privilege in a defamation case.

14
B.
Respondent Did not Show Evidence Supporting a
Press Conference.
The respondent in this case did not show any proof of a
public press release in order to qualifies for the fair report
privilege which must be communicated through public
access and not private communication, Burke v. Sparta
Newspaper 592 S. W. 3D 116 (2019), where the trial court
grant summary judgment in respondent favor, also, the
trial court did not consider none of petitioner's exhibits as
evidence which would have ruled in his favor under
Section 47 (b)(2), petitioner was denied trial and this is
the last court of resource.
C.
The Court of Appeal Fourth District Division Two
is in Conflict.with the Tennessee Supreme Court.
Because the respondent did not or could not show proof of
a public press release at any place, date, or time, where
summary judgment is warranted, the design of granting
summary judgment is an error.
In Burke v. Sparta Newspaper 592S. W. 3D 116 (2019),
the Tennessee Supreme Court recently refused to apply
the fair report privilege to a one-one telephone
conversation between a reporter and a police officer.
D.
This is an Ideal Vehicle for Review of the Fair
Report Privilege. Section § 47(b)(21. and a Public Press
Release Conference.
Because this Court has not made any design on the
questions presented above'which have national importance
and have been decided by the Tennessee Supreme Court
dividing two courts of appeal in two jurisdiction
This case started in December of 2017, where petitioner
discovered he was being defamed by respondent Detective
Anthony Valencia from a republication in 2007, petitioner
was only able to gain access to High Beam Publication
through entering respondent full name in the search bar
on his computer, connection Detective Anthony Valencia
to High Beam, that republication should have had no
relevance bn petitioner’s life in 2017 because of his
acquittal in 2009, making that printing false in 2017.

!

15
For example: in the case of People v. Robert Blake ,
\ ,
(Berretta) who was charges with murdering his wife and
was acquitted of all charges, since his acquittal there;has .
been no mentioning anywhere of the allegations he was
charged with to date because that would be unfair to him,
justice has spoken.
V.
In the case of People v. Sangster justice has spoken in the
summer of 2009, but yet there is still a publication on the .
internet defaming Sangster’s good name with Detective ,
Anthony Valencia connected to it, it appears Robert Blake
was able to gain satisfaction from his acquittal but .
Sangster was not able to enjoy the same privacy causing
him to suffer the black balling of his name in the trucking industries where he earned a living and the lost of his
business he so enjoyed destroying petitioner's dream to
become a successful entrepreneur.
f
The only date that is relevant is December 28, 2017, the
clock starts then because any publication about
Lumbsden A Sangster regarding any crime in 2017, in
simply not true But.if the respondent wants to used the.
Fair Report Privilege as a Vehicle for their defense then. '
the court must add Section § 47(b)(2), and respondent,
must show proof or evidence of a public press release
conference. Burke v. Sparta Newspaper 592 S.W. 3D 116
(2019).
E.
In Support of the Writ of Certiorari
Petitioner have experience lots of inconsistencies with
respondent and his colleague of San Bernardino County,*
in relation to what led up to this case they have book
petitioner for a false booking for murder, Appendix B,'
177a, threaten a witness telling her she should lie,
Appendix B, 169a #(1),(4), and 163a, the County of San Bernardino Risk Management claim to have not received'
petitioner's claim which was stamped February 5 2018,
and again March 7 2018, Appendix B, 153a-183a, the
statement made, not receiving the claim was hoping
petitioner would file late.

i

16
Respondent was not able to answer petitioners question
in admission, set one, Appendix B, 133a line 2,3a, claming
harassment and oppressive as petitioner was able to
provide all that was ask of him, such as what high school
he went to, college, and any certificates which all were
irrelevant, harassment and oppressive but petitioner
answered anyway.
The question ask of Nicholas George Malea being
affiliated with government or family of government,
Appendix B, 132a, (line24:26), was showing at the time
there were a conspiracy in the making, fraud, tampering
with evidence; coaching and manipulating a witness who
testify in a criminal trial court of law that respondent told
her to lie and Bobby Holt as a placed informant, Appendix
B,132a, (line 12), who eaused petitioner’s physical injuries
to his back and right eye, Appendix B, 172a-176a, were
inspired by respondent colleague, these are criminal acts
by respondent and his colleague.
Deputy County Counsel who work for the County of San
Bernardino, who is representing respondent in this law
suit have plea degrading statement about petitioner who
have never said or plea anything negative about or
towards the counsel, but still he feel the need to demonize
petitioner in his declaration filed August 3,2018.
All these inconsistencies and negative remarks only
shows the County of San Bernardino who did not
acknowledge petitioner’s claim filed February 5,2018, will
not take responsibility for their employees actions and
will do anything to refrain from the facts that they have
wrong petitioner, It is clear to see that respondent is not
being honest about himself orchis colleague in his
declaration and have manipulated previous investigation
which is obstruction of justice adding to the already mass
incarceration prison system in California.

4

17
Our system states justice must be served when all the
facts and evidence are gathered and the defendant is
found innocent or guilty by a judge and or jury, not by the
act of Detective Anthony Valencia and his colleague by
planting evidence, threaten and manipulating a witness,
destroying private property, and planting an informant in
the county jail to beat a confession out of a person who is
innocent until proven guilty that would be a kangaroo
system.
CONCLUSION
The people voted for these rules, the legislators wrote
these rules into laws, and the court system must apply
the laws belonging to the people, petitioner should never
have to beg any level of the court system the for rights,
privileges or laws belonging to him, (Section § 47(b)(2)),
and Burke v. Sparta Newspaper 592 S. W 3D 116 (2019)
should apply, these are the two obstacles standing in
respondent way which he must over come them both in
order for satisfaction of the fair report privilege.
For all the above reasons, the petition for a writ of
certiorari should be granted

Dated: July 1,2021

Respectfully Submitted
Lumbsden A Sangster

OxM &Jv

Lumbsden A Sangster
Plaintiff, Appellant, and Petitioner
In Pro-se

i

